No. _______
IN THE
SUPREME COURT OF THE UNITED STATES
ABDISALAN ABDULAHAB HUSSEIN,

Petitioner,
v.
UNITED STATES OF AMERICA,

Respondent.

CERTIFICATE OF SERVICE
I, Rabea Jamal Zayed, do hereby certify that on this date, December 29, 2020,
one copy of the foregoing Motion for Leave to Proceed In Forma Pauperis, Petition
for a Writ of Certiorari, and Appendix were sent by USPS Express Mail, postage
prepaid to:
Solicitor General of the United States
Room 5616
Department of Justice
950 Pennsylvania Ave., N.W.
Washington, DC 20530-0001
I declare under penalty of perjury that the foregoing is true and correct.
s/ Rabea Jamal Zayed
Rabea Jamal Zayed

Counsel for Petitioner
Abdisalan Abdulahab Hussein

4811-3336-9557\

